APPENDIX

TABLE OF APPENDICES
Appendix A: Opinion of the U.S. Court of Appeals for the
Eleventh Circuit (Oct. 30, 2020) ............................................................ 1a
Appendix B: Judgment of the U.S. District Court for the
Southern District of Florida (Feb. 21, 2020) ......................................... 3a

APPENDIX A

USCA11 Case: 20-10896

Date Filed: 10/30/2020

Page: 1 of 2

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 20-10896
Non-Argument Calendar
________________________
D.C. Docket No. 9:19-cr-80161-RKA-1

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
KASHUS DAVIS,
Defendant-Appellant.
________________________
Appeal from the United States District Court
for the Southern District of Florida
________________________
(October 30, 2020)
Before NEWSOM, ANDERSON, and ED CARNES, Circuit Judges.
PER CURIAM:
Kashus Davis pleaded guilty to being a felon in possession of a firearm. See
18 U.S.C. § 922(g). He appeals his sentence, contending that the district court
erroneously ruled that he qualified for a sentence enhancement under the Armed

1a

USCA11 Case: 20-10896

Date Filed: 10/30/2020

Page: 2 of 2

Career Criminal Act (ACCA), 18 U.S.C. § 924(e). Davis argues that his prior
convictions under Florida Statutes § 893.13(1) are not predicate “serious drug
offense[s]” for purposes of the ACCA because the Florida statute “does not require
an element of mens rea regarding the illicit nature of the controlled substance.”
Prior panel precedent forecloses Davis’ argument. We held in Smith that
Florida Statutes § 893.13(1) is a “serious drug offense” for purposes of the ACCA.
United States v. Smith, 775 F.3d 1262, 1268 (11th Cir. 2014). We also held that a
“serious drug offense” need not include an element of mens rea regarding the illicit
nature of the controlled substance. Id. at 1267–68.
We remain bound by Smith unless and until it is overruled by either the
Supreme Court or us en banc. See Smith v. GTE Corp., 236 F.3d 1292, 1300 n.8
(11th Cir. 2001). Because that has not happened, we affirm Davis’ sentence.
AFFIRMED.

2a

APPENDIX B

Case 9:19-cr-80161-RKA Document 34 Entered on FLSD Docket 02/21/2020 Page 1 of 6
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 1 of 6

UNITED STATES DISTRICT COURT
Southern District of Florida
West Palm Beach Division

UNITED STATES OF AMERICA
v.
KASHUS ALFRED DAVIS

JUDGMENT IN A CRIMINAL CASE
Case Number: 9:19-CR-80161-ALTMAN-001
USM Number: 20592.104
Counsel For Defendant: Peter Birch
Counsel For The United States: Adam McMichael
Court Reporter: Francine Salopek

The defendant pleaded guilty to count one of the Indictment.
The defendant is adjudicated guilty of these offenses:
TITLE & SECTION

NATURE OF OFFENSE

OFFENSE
ENDED

COUNT

18 USC §§ 922(g)(1) and
924(e)

Possession of a Firearm and ammunition by a
Convicted Felon

06/29/2016

1

The defendant is sentenced as provided in the following pages of this judgment. The sentence is imposed pursuant
to the Sentencing Reform Act of 1984.
All remaining counts are dismissed on the motion of the government.
It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change
of name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this
judgment are fully paid. If ordered to pay restitution, the defendant must notify the court and United States attorney
of material changes in economic circumstances.

Date of Imposition of Sentence: 2/11/2020

____________________________________________
Roy K. Altman
United States District Judge

Date: 2/20/2020

3a

Case 9:19-cr-80161-RKA Document 34 Entered on FLSD Docket 02/21/2020 Page 2 of 6
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 2 of 6

DEFENDANT: KASHUS ALFRED DAVIS
CASE NUMBER: 9:19-CR-80161-ALTMAN-001
IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a
total term of 130 months as to Count one of the Indictment. This sentence shall run concurrent with any state
sentence imposed. This Federal Sentence shall begin immediately.
The Court recommends that the Defendant be designated to a facility in the Southern District of Florida.
The defendant is remanded to the custody of the United States Marshal.
RETURN
I have executed this judgment as follows:

Defendant delivered on ________________________________________ to ________________________________________
at ________________________________________, with a certified copy of this judgment.

___________________________________________
UNITED STATES MARSHAL

___________________________________________
DEPUTY UNITED STATES MARSHAL

4a

Case 9:19-cr-80161-RKA Document 34 Entered on FLSD Docket 02/21/2020 Page 3 of 6
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 3 of 6

DEFENDANT: KASHUS ALFRED DAVIS
CASE NUMBER: 9:19-CR-80161-ALTMAN-001
SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of 2 years.
The defendant must report to the probation office in the district to which the defendant is released within 72 hours of release
from the custody of the Bureau of Prisons.
The defendant shall not commit another federal, state or local crime.
The defendant shall not unlawfully possess a controlled substance. The defendant shall refrain from any unlawful use of a
controlled substance. The defendant shall submit to one drug test within 15 days of release from imprisonment and at least
two periodic drug tests thereafter, as determined by the court.
The defendant shall not possess a firearm, ammunition, destructive device, or any other dangerous weapon.
The defendant shall cooperate in the collection of DNA as directed by the probation officer.
If this judgment imposes a fine or restitution, it is a condition of supervised release that the defendant pay in accordance with
the Schedule of Payments sheet of this judgment.
The defendant must comply with the standard conditions that have been adopted by this court as well as with any additional
conditions on the attached page.

STANDARD CONDITIONS OF SUPERVISION
1.
2.
3.
4.
5.
6.
7.
8.
9.
10.
11.
12.
13.

The defendant shall not leave the judicial district without the permission of the court or probation officer;
The defendant shall report to the probation officer and shall submit a truthful and complete written report within the first fifteen
days of each month;
The defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the probation officer;
The defendant shall support his or her dependents and meet other family responsibilities;
The defendant shall work regularly at a lawful occupation, unless excused by the probation officer for schooling, training, or
other acceptable reasons;
The defendant shall notify the probation officer at least ten days prior to any change in residence or employment;
The defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute, or administer any
controlled substance or any paraphernalia related to any controlled substances, except as prescribed by a physician;
The defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or administered;
The defendant shall not associate with any persons engaged in criminal activity and shall not associate with any person
convicted of a felony, unless granted permission to do so by the probation officer;
The defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and shall permit confiscation
of any contraband observed in plain view of the probation officer;
The defendant shall notify the probation officer within seventy-two hours of being arrested or questioned by a law enforcement
officer;
The defendant shall not enter into any agreement to act as an informer or a special agent of a law enforcement agency without
the permission of the court; and
As directed by the probation officer, the defendant shall notify third parties of risks that may be occasioned by the defendant’s
criminal record or personal history or characteristics and shall permit the probation officer to make such notifications and to
confirm the defendant’s compliance with such notification requirement.

5a

Case 9:19-cr-80161-RKA Document 34 Entered on FLSD Docket 02/21/2020 Page 4 of 6
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 4 of 6

DEFENDANT: KASHUS ALFRED DAVIS
CASE NUMBER: 9:19-CR-80161-ALTMAN-001
SPECIAL CONDITIONS OF SUPERVISION
Employment Requirement - The defendant shall maintain full-time, legitimate employment and not be
unemployed for a term of more than 30 days unless excused for schooling, training or other acceptable reasons.
Further, the defendant shall provide documentation including, but not limited to pay stubs, contractual
agreements, W-2 Wage and Earnings Statements, and other documentation requested by the U.S. Probation
Officer.
Permissible Search - The defendant shall submit to a search of his/her person or property conducted in a
reasonable manner and at a reasonable time by the U.S. Probation Officer.
Unpaid Restitution, Fines, or Special Assessments - If the defendant has any unpaid amount of restitution,
fines, or special assessments, the defendant shall notify the probation officer of any material change in the
defendant’s economic circumstances that might affect the defendant’s ability to pay.

6a

Case 9:19-cr-80161-RKA Document 34 Entered on FLSD Docket 02/21/2020 Page 5 of 6
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 5 of 6

DEFENDANT: KASHUS ALFRED DAVIS
CASE NUMBER: 9:19-CR-80161-ALTMAN-001
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
TOTALS

Assessment
$100.00

Fine
$0.00

Restitution
$0.00

If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment,
unless specified otherwise in the priority order or percentage payment column below. However, pursuant to
18 U.S.C. § 3664(i), all nonfederal victims must be paid before the United States is paid.
NAME OF PAYEE

TOTAL LOSS*

RESTITUTION ORDERED

* Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for
offenses committed on or after September 13, 1994, but before April 23, 1996.
**Assessment due immediately unless otherwise ordered by the Court.

7a

Case 9:19-cr-80161-RKA Document 34 Entered on FLSD Docket 02/21/2020 Page 6 of 6
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 6 of 6

DEFENDANT: KASHUS ALFRED DAVIS
CASE NUMBER: 9:19-CR-80161-ALTMAN-001
SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A. Lump sum payment of due immediately.
Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal
monetary penalties is due during imprisonment. All criminal monetary penalties, except those payments made
through the Federal Bureau of Prisons’ Inmate Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties
imposed.
This assessment is payable to the CLERK, UNITED STATES COURTS and is to be addressed to:
U.S. CLERK'S OFFICE
ATTN: FINANCIAL SECTION
400 NORTH MIAMI AVENUE, ROOM 08N09
MIAMI, FLORIDA 33128-7716
The assessment is payable immediately. The U.S. Bureau of Prisons, U.S. Probation Office and the U.S. Attorney's
Office are responsible for the enforcement of this order.
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and
Several Amount, and corresponding payee, if appropriate.
CASE NUMBER
DEFENDANT AND CO-DEFENDANT NAMES
(INCLUDING DEFENDANT NUMBER)

TOTAL AMOUNT

JOINT AND SEVERAL
AMOUNT

The Government shall file a final order of forfeiture within 3 days.
The defendant shall forfeit the defendant’s interest in the following property to the United States:
The firearm and ammunition as agreed to in the plea agreement ECF No. [22].
1.
2.
3.

one ( 1) FMJ Co bra, model M-11, 9 millimeter handgun
approximately twenty-seven (27) rounds of 9 millimeter ammunition
approximately twenty-eight (28) rounds of .40 caliber ammunition

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest,
(4) fine principal, (5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including cost of
prosecution and court costs.

8a

